App. 1
Appendix
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11851
Non-Argument Calendar
D.C. Docket No. i:i9-cv-00013-JRH-BKE

BRIAN D. SWANSON,
Plaintiff-Appellant,
Versus
UNITED STATES OF AMERICA,
Defendant-Appellee.
Appeal from the United States District Court
for the Southern District of Georgia
(January 7, 2020)

App. 2
Before NEWSOM, BRANCH and BLACK, Circuit
Judges.
PER CURIAM:
Brian Swanson, proceeding pro se, appeals the
dismissal of his suit for failure to state a claim and
lack of subject-matter jurisdiction. Swanson’s suit
sought a refund of individual income taxes for tax
years 2016 and 2017. Swanson contends (l)
employment earnings constitute a return of capital
rather than income, and (2) his employment
earnings did not constitute “wages” within the
meaning of our prior precedent because his salary
was not taxable as a privilege or derived from
privileged employment. The Government responds
that Swanson’s position is frivolous and, because his
tax return reported no wage income based on a
frivolous position, he failed to file a valid claim for
refund before filing his refund suit, as required by 26
U.S.C. § 7422(a). It also moves for sanctions,
pursuant to Federal Rule of Appellate Procedure 38,
because of the frivolity of Swanson’s appeal.
Swanson
contends
the
Government
made
misrepresentations in its motion for sanctions such
that it should not be granted and moves for sanctions,
pursuant to Federal Rule of Appellate Procedure 46.
We address each contention in turn.
I. DISCUSSION
A. Subject-Matter Jurisdiction
“The subject matter jurisdiction of the district
court is a question of law subject to de novo review.”
Mut. Assurance, Inc. v. United States, 56 F.3d 1353,

App. 3
1355 (llth Cir. 1995). Generally, a taxpayer seeking
a refund may sue the government in district court.
28 U.S.C. § 1346(a)(1). However,
No suit or proceeding shall be
maintained in any court for the
recovery of an internal revenue tax
alleged to have been erroneously or
illegally assessed or collected . . . until a
claim for refund or credit has been duly
filed with the Secretary, according to
the provisions of law in that regard, and
the regulations of the Secretary
established in
pursuance thereof.
26 U.S.C. § 7422(a). This requirement is
jurisdictional. King v. United States, 789 F.2d 883,
884 (llth Cir. 1986).
The district court did not err in granting the
Government’s motion to dismiss for lack of subjectmatter jurisdiction because Swanson failed to file a
valid claim for refund as his tax return asserted a
frivolous position. 1 See 26 U.S.C. § 7422(a).
Swanson’s argument his salary was not taxable as
income is frivolous under our precedent. Arguments
“that wages are not taxable income .... have been
1 To the extent the Government argues Swanson waived any
challenge to the jurisdictional finding (l) the district court
made its jurisdictional finding based on the frivolity of
Swanson’s position, so Swanson’s arguments regarding frivolity
are interrelated with the jurisdictional issue, and (2) the
specific references to the jurisdictional finding in his brief
indicate he also intended to challenge that determination.

App. 4
rejected by courts at all levels of the judiciary and
are patently frivolous.” Stubbs v. Comm’r, 797 F.2d
936, 938 (llth Cir. 1986). We have specifically held
as frivolous arguments, including:
that [taxpayers’] wages are not income
subject to tax but are a tax on property
such as their labor; that only public
servants are subject to tax liability;
[and] that withholding of tax from
wages is a direct tax on the source of
income without apportionment in
Sixteenth
violation
of
the
Amendment
Motes v. United States, 785 F.2d 928, 928 (llth Cir.
1986); see also Biermann v. Comm’r, 769 F.2d 707,
708 (llth Cir. 1985) (rejecting the argument that
wages are not “income” as patently frivolous). We
have also rejected as frivolous arguments that there
is no gain in compensation for labor because the
value of the compensation equals the value of the
labor. See Lonsdale v. Comm’r, 661 F.2d 71,
72 (llth Cir. 1981).
Swanson’s argument his salary is not taxable
as income is also frivolous pursuant to the
Department of the Treasury’s notice. In 2010, the
Internal Revenue Service issued Notice 2010-33,
which identified positions that would lead to the
imposition of the frivolous-return penalty. I.R.S.
Notice 2010*33, 2010-17 I.R.B. 609. In pertinent part,
the notice identified the argument that:
Wages, tips, and other compensation
received for the performance of personal

App. 5
services are not taxable income or are
offset by an equivalent deduction for the
personal services rendered, including an
argument that a taxpayer has a “claim
or right” to exclude the cost or value of
the taxpayer’s labor from income or that
taxpayers have a basis in their labor
equal to the fair market value of the
wages they receive, or similar
arguments described as frivolous in Rev.
Rul. 2004-29, 2004-1 C.B. 627, or Rev.
Rul. 2007-19, 2007-1 C.B. 843.
Id. f 111(4). In the listed 2007 revenue ruling, the
Department of the Treasury included the argument
the payment of wages or other compensation is a
nontaxable exchange of property, noting there was a
distinction between employment earnings and
selling or exchanging property and that, because a
taxpayer has no tax basis in his labor, the full
amount of his compensation represents taxable gain.
Rev. Rul. 2007-19, 2007-1 C.B. 843.
Swanson’s contention his salary was not “wages”
is contrary to the statutory definition of the term.
Section 3401 of the Tax Code provides that, for the
purpose of withholding income taxes, “wages” refers
to “all remuneration (other than fees paid to a public
official) for services performed by an employee for his
employer,” minus certain enumerated exceptions
that do not apply in this case. 26 U.S.C. § 3401(a).
Similarly, § 3121 provides that, for purposes of
Federal Insurance Contributions Act, wages “means
all remuneration for employment,” minus certain
enumerated exceptions that do not apply in this case.
Id. § 3121(a).

App. 6

Accordingly, Swanson’s tax return, which
reported no wage income pursuant to his frivolous
position, was not an “honest and reasonable attempt”
to comply with the tax laws, and was not a valid
claim for refund. To qualify as a tax return, a
document must satisfy what is known as the Beard
test. In re Justice, 817 F.3d 738, 740 (llth Cir. 2016)
(citing Beard v. Comm’r, 82 T.C. 766, 777 (1984)).
Specifically, a document must: (l) “purport to be a
return”; (2) “be executed under penalty of perjury”; (3)
“contain sufficient data to allow calculation of tax”;
and (4) “represent an honest and reasonable attempt
to satisfy the requirements of the tax law.” Id. at
740-41. Because Swanson did not file any other
documents that met the requirement of
“representing] an honest and reasonable attempt to
satisfy the requirements of the tax law,” the district
court lacked subject-matter jurisdiction to consider
his suit as Swanson filed no “claim for refund or
credit . . . according to the provisions of law in that
regard, and the regulations of the Secretary
established in pursuance thereof.” See id.; 26 U.S.C.
§ 7422(a).
B. Sanctions
1. Against Swanson
Federal Rule of Appellate Procedure 38 allows
a court of appeals, after a separately filed motion
and reasonable opportunity to respond, to award
damages and single or double costs to an appellee if
the court determines that the appeal is frivolous. Fed.
R. App. P. 38; see also 28 U.S.C. § 1912 (authorizing
an award of damages and single or double costs

App. 7
when a judgment is affirmed). We have previously
warned appellants seeking to argue that their wages
are not taxable income: “[Tlhose who would litigate
in this circuit are put on notice that they may be
expected to have sanctions imposed against them if
they continue to raise these sorts of frivolous
contentions.” Hyslep v. United States, 765 F.2d 1083,
1084-85 (11th Cir. 1985).
In Waters v. Commissioner, we awarded
double costs plus reasonable attorneys’ fees against a
pro se appellant who argued that his wages were not
income. 764 F.2d 1389, 1389-90 (1985). In making
the award, we noted that (l) it was “well established
and long settled that wages are includable in taxable
income”! (2) the notice of deficiency warned the
taxpayer that his position was frivolous; (3) the Tax
Court expressly found that the taxpayer’s position
was frivolous and awarded damages; and (4) the Tax
Court’s “opinion provided a detailed statement of
reasons and citations of authority.” Id. at 1390.
Swanson’s arguments regarding his salary were
frivolous. He was forewarned about the frivolity of
his position through (l) our prior precedent; (2) the
Department of the Treasury’s statements in Notice
2010-33 and Rev. Rul. 2007-19; (3) four frivolousreturn notices that Swanson received after
submitting tax returns asserting this position; and (4)
the district court’s express statement that his
position was frivolous. In fight of this record, Rule 38
sanctions are appropriate. In its motion, the
Government requests a lump sum of $8000, and
Swanson does not challenge either the amount of
this sum or the use of lump sums in awarding

App. 8
sanctions. Accordingly, we grant the Government’s
motion and award $8000 in sanctions.
2. Against the Government
We may discipline an attorney for “conduct
unbecoming a member of the court’s bar.” Fed. R.
App. P. 46(b), (c). Here, the only inaccurate
statements in the Government’s motion for sanctions
are its description of (l) the amount of Swanson’s
salary and (2) how much taxable income he reported
on his return. These statements are immaterial to
the issues in this appeal and appear to be based on
the Government’s misunderstanding of the
allegations in Swanson’s complaint. As such, the
inaccuracies are not a deliberate attempt to mislead
this Court, and we deny Swanson’s motion for
sanctions.
II. CONCLUSION
Swanson’s suit was based on his contention
his salary did not constitute taxable income, an
argument this Court has determined to be frivolous
in other cases. Because his tax return asserted this
frivolous position, Swanson failed to file a valid claim
for refund, and the district court lacked subjectmatter jurisdiction to consider his refund suit.
Accordingly, we AFFIRM the district court.
Because Swanson was forewarned about the
frivolity of his position, we GRANT the
Government’s motion for sanctions and award $8,000
in sanctions. However, we DENY Swanson’s motion
for sanctions because the inaccuracies in the

App. 9
Government’s motion do not appear to be an attempt
to mislead this Court.
AFFIRMED; GOVERNMENT’S MOTION FOR
SANCTIONS GRANTED; SWANSON’S MOTION
FOR SANCTIONS DENIED.

App. 10
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF GEORGIA
AUGUSTA DIVISION
BRIAN D. SWANSON,

*

Plaintiff,
* CV 119-013

V.

UNITED STATES OF AMERICA, *
Defendant.
ORDER
Before the Court is Defendant's motion to dismiss
(Doc. 11) and Plaintiffs motion to take judicial notice
(Doc. 10). Plaintiff is a public school teacher earning
a salary of over $100,000. (Compl. , Doc. 1, at 5.) In
2016 and 2017, his employer withheld $10,621.00
and $12,471.19, respectively. (Id.) On his 2016 and
2017 tax returns. Plaintiff reported income of zero
dollars and five dollars, respectively. (Id.) Plaintiff
believes his salary is not income, not taxable, and all
tax withheld by his employer should be refunded to
him. (Id. at 5-6.)
Upon receipt of Plaintiffs tax returns, the
Internal Revenue Service issued to Plaintiff
Frivolous Return Notices. (Id. at 5.) Plaintiff
responded to both notices claiming his returns were
not frivolous, but never received a reply. (Id.) After
waiting more than six months as required by 26
U.S.C. §6532(a) (1), Plaintiff filed this tax refund suit.
Defendant argues Plaintiffs complaint fails to
state a claim for relief thus, it should be dismissed

App. 11
under Federal Rule of Civil Procedure 12(b)(6). To
survive a Rule 12(b)(6) motion to dismiss, '"a
complaint must contain sufficient factual matter,
accepted as true,2 to ‘state a claim to relief that is
plausible on its face.'" Ashcroft v. Iqbal. 556 U.S. 662,
678 (2009) (quoting Bell Atl. Com, v. Twomblv, 550
U.S. 544, 570 (2007)). "A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged." Id.
The “factual allegations must be enough to raise a
right to relief above the speculative level." Patton v.
Rowell. 678 F. App'x 898, 900 (llth Cir. 2017) (per
curiam) (citation omitted).
As for pro se plaintiffs, "a pro se complaint,
however inartfully pleaded, must be held to less
stringent standards than formal pleadings drafted
by lawyers." Erickson v. Pardus. 551U.S. 89, 94
(2007). "Even though a pro se complaint should be
construed liberally, [it] still must state a claim upon
which the [c]ourt can grant relief." Wilson v.
Vanalstine, No. P17-cv615-l WSD, 2017 WL
4349558, at *2 (N.D. Ga. Oct. 2, 2017) (quoting
Grigsby v. Thomas. 506 F. Supp. 2d 26, 28 (D.D.C.
2007)).
Plaintiffs arguments as to why his salary is not
taxable income are frivolous. Specifically, Plaintiff
2 When analyzing a motion to dismiss, the court must accept all
well-pleaded facts in the complaint as true and construe all
reasonable inferences therefrom in the light most favorable to
the plaintiff. Garfield v. NDC Health Corp., 466 F.3d 1255,
1261 (llth Cir. 2006). Conclusory allegations, however, "are not
entitled to an assumption of truth — legal conclusions must be
supported by factual negations." Randall v. Scott, 610 F.3d 701,
709-10 (Uth Cir. 2010).

App. 12
argues his "employment earnings are property" and
"financial capital," "not income" (Compl., at 5-6);
"[l]ife and labor are capital assets and the mere
conversion of these assets into money is financial
capital, not income" (Id. at 6); and "[t]he Sixteenth
Amendment applies to income only and by refusing
to issue Plaintiffs 2016 and 2017 refunds. Defendant
is attempting to collect a direct tax without
apportionment on Plaintiffs capital, which violates
the Sixteenth Amendment" (Id.).3
"lAlrguments that wages are not taxable income
have ‘been rejected by courts at all levels of the
judiciary and are patently frivolous."' Fennel v.
Comm'r of Internal Revenue Serv., 579 F. App'x 7.67,
769 (llth Cir. 2014) (per curiam) (citation omitted);
accord Motes v. United States. 785 F.2d 928, 928
(llth Cir. 1986) (per curiam) (arguments that
3

Plaintiffs motion to take judicial notice requests the Court
accept his interpretation of case law and legislative history
supporting these theories. (See generally Doc. 10.) Federal
Rule of Evidence 201(b) permits the Court to "judicially notice a
fact that is not subject to reasonable dispute because it: (l) is
generally known within the trial court's territorial jurisdiction,'
or (2) can be accurately and readily determined from sources
whose accuracy cannot reasonably be questioned." A court has
wide discretion to take judicial notice of "appropriate
adjudicative facts at any stage in a proceeding," but the process
is "highly limited" because "the taking of judicial notice
bypasses the safeguards which are involved with the usual
process of proving facts by competent evidence in district
court." Pippin' Dots. Inc, v. Frosty Bites Distribution. LLC. 369
F.3d 1197, 1204-05 (llth Cir. 2004). The interpretations
Plaintiff asks the Court to accept are precisely the theories
disputed in this case. Such disputed theories are inappropriate
for the taking of judicial notice. Furthermore, as discussed infra,
Plaintiffs interpretations are incorrect. Thus, Plaintiffs motion
to take judicial notice (Doc. 10) is DENIED.

App. 13
"wages are not income subject to tax but are a tax on
property such as their labor! that only public
servants are subject to tax liability! [and] that
withholding of tax from wages is a direct tax on the
source of income without apportionment in violation
of the Sixteenth Amendment . . . are frivolous"!
Hyslep v. United States, 765 F.2d 1083, 1084 (llth
Cir. 1985) (per curiam) ("[T]he argument that
individual wage earners are not subject to income
tax is completely frivolous and without merit.").
Plaintiff makes no argument that allows this
Court to find Plaintiff is entitled to relief.
Accordingly, Plaintiffs complaint fails to state a
claim upon which relief can be granted, and the
Court GRANTS Defendant's motion to dismiss (Doc.
11).4 The Clerk is directed to TERMINATE all
4 Although Defendant does not argue Plaintiffs complaint
should be dismissed under Rule 12(b)(1) for lack of subject
matter jurisdiction, there is authority that the Court lacks
jurisdiction over this matter. As a limited waiver of sovereign
immunity, the United States allows a taxpayer to sue it for a
tax refund but only if the taxpayer first files a refund claim
with the government. 28 U.S.C. § 1346(a)(1); 26 U.S.C. §
7422(a); see Enax v. Comm'r of Internal Revenue Serv.. 476 F.
App'x 857, 859 (llth Cir. 2012) (per curiam) (if taxpayer does
not first file properly executed refund claim under section
7422(a), "the district court does not have jurisdiction to
entertain the tax refund suit"); Ruble V. U.S. Gov't. Deo't of
Treasury. 159 F. Supp. 2d 1381, 1383 (N.D. Ga. 2001) (citing
Charter Co. v. United States, 971 F.2d 1576, 1579 (llth Cir.
1992)). Although an income tax return may qualify as a refund
claim, the tax return must be "properly executed" and "must at
a minimum ‘identify "the essential requirements" of each and
every refund demand.'" 26 C.F.R. § 301.6402-3(a)(5); Thompson
v. United States. No. CIV.A.i:98-CV-1838RW, 1999 WL 302453,
at *2 (N.D. Ga. 1999) (quoting In re Rvan. 64 F.3d 1516, 1521
(11th Cir. 1995)). When a taxpayer claims a refund based on
arguments that are "nothing short of frivolous and fraudulent,"
the tax return does not constitute a properly executed refund

App. 14
pending motions and deadlines, if any, and CLOSE
this case.
ORDER ENTERED at Augusta, Georgia, this 3rd
day of May, 2019.
/s/ Randal Hall
J. RANDAL HALL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA

claim. Thompson. 1999 WL 302453, at *2; see 26 U.S.C. §
6702(a) (l) (B) (defining a frivolous return as one which
"contains information that on its face indicates that the selfassessment is substantially incorrect").
As discussed supra, Plaintiff's tax returns are frivolous; thus,
they do not qualify as properly executed refund claims.
Accordingly, Plaintiff failed to follow the procedure required to
bring this suit against the United States, and the Court lacks
jurisdiction over this matter. See Gillespie v. United States. 670
F. App'x 393, 395 (7th Cir. 2016); Thompson, 1999 WL 302453,
at *2 (court lacks jurisdiction because frivolous tax return did
not qualify as refund claim); Ruble, 159 F. Supp. 2d at 1384.
Nevertheless, the Court finds that even if it does have
jurisdiction over Plaintiff's pro se action. Plaintiff still fails to
state a claim. See Barrett v. United States. 369 F. App'x 65, 67
(llth Cir. 2010) (per curiam) (affirming district court's Rule
12(b)(6) dismissal of pro se taxpayer's frivolous tax refund suit
without discussing jurisdiction or whether proper refund claim
was executed).

